           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   DELIVERY ORDER WITH SOFTMART
   GOVERNMENT SERVICES, INC., FOR
MICROSOFT LICENSING AND MAINTENANCE

    September 2010   A-06-10-11019




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 17, 2010                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Delivery Order with Softmart Government Services, Inc., for Microsoft Licensing and
           Maintenance (A-06-10-11019)


           OBJ ECTIVE
           The objectives of our audit were to (1) review the services provided by Softmart
           Government Services, Inc., (Softmart) under delivery order number 0440-03-52698 and
           the related costs charged to the Social Security Administration (SSA) for adherence to
           the negotiated terms and applicable regulations; and (2) ensure the Agency received
           the goods and services for which it paid.

           BACKGROUND
           Executive Order 13103, Computer Software Piracy, 1 requires that Federal agencies
           establish procedures to ensure compliance with established computer software
           licensing laws and regulations. SSA’s Office of Telecommunications and Systems
           Operations (OTSO) develops guidelines and processes to ensure SSA complies with
           this Executive Order.

           OTSO established a purchasing vehicle to acquire associated software licensing and
           maintenance/upgrade rights for SSA desktop and laptop personal computers.
           Components that purchase or consider purchasing computer workstations, including
           desktops and laptop personal computers, contact OTSO to acquire licensing rights for
           the Agency’s standard commercial-off-the-shelf software suite.

           On September 30, 2003, SSA awarded delivery order number 0440-03-52698 to
           Softmart to purchase Microsoft licenses and maintenance for Microsoft products
           covered by the Microsoft Enterprise Agreement. The award amount was $87 million
           with a period of performance from September 30, 2003 to October 22, 2008.
           SSA established the delivery order against an existing General Services


           1
               Exec. Order No. 13103, 63 Fed. Reg. 53,273 (September 30, 1998).
Page 2 - The Commissioner


Administration (GSA) contract. 2 As a result of an expected lapse of service between the
expiration of the Softmart delivery order and the pending award of a new blanket
purchase agreement, 3 the delivery order was extended to December 22, 2008.
Because of modifications and the extension of the performance period, the cumulative
delivery order award total was increased to approximately $105 million. See Appendix
A for more detailed information regarding the scope and methodology for our audit.

RESULTS OF REVIEW
Amounts paid for services provided under the delivery order were in accordance with
prices negotiated under the GSA contract, and SSA received the goods and services for
which it paid. However, SSA did not adequately document its need for the number of
software licenses maintained. The number of software licenses is the primary factor in
determining overall maintenance costs.

SSA did not maintain documentation supporting its need for 107,946 licenses and
related maintenance support for each Microsoft software product 4 listed in Table 1
below.

          Table 1: 107,946 Software Licenses Maintained Under the Contract
          Microsoft Office XP Professional
          Microsoft Windows Professional
          Microsoft Exchange Server Client Access Licenses
          Microsoft Systems Management Server Client Access Licenses
          Microsoft Windows Client Access Licenses

SSA officials acknowledged the contract file did not contain documentation supporting
the need for 107,946 licenses. An SSA official stated the number of licenses
maintained under the contract was simply carried forward from the prior contract
(awarded to a different contractor). SSA officials stated they believed the need for this
number of licenses was documented in the prior contract file. However, we could not
confirm this since SSA destroyed the contract file after the required retention period.

The delivery order with Softmart expired on December 22, 2008. On the same day,
SSA awarded ASAP Software Express, Inc., a 5-year blanket purchase agreement
valued at approximately $130 million to acquire Microsoft software licenses,
maintenance, and technical support services. Under the contract with ASAP Software
Express, Inc., SSA appeared to have made significant changes to the number of
Microsoft software licenses procured. On February 9, 2009, SSA transferred the

2
    GSA contract number GS-35F-0346J.
3
 A blanket purchase agreement is a simplified method for filling anticipated repetitive needs for supplies
or services by establishing the equivalent of “charge accounts” with qualified sources of supply.
4
  Approximately 83 percent of the total maintenance cost involved licenses and maintenance support for
these five products.
Page 3 - The Commissioner


blanket purchase agreement to Dell Marketing L.P. because Dell Marketing had
acquired ASAP Software Express, Inc. We plan to perform a similar audit of the Dell
Marketing L.P. contract and will determine whether SSA can support its need for the
current number of software licenses.

CONCLUSION AND RECOMMENDATION
Amounts paid for services provided under the delivery order were in accordance with
negotiated prices, and SSA received the services for which it paid. However, the
contract file did not include support for SSA’s need for five specific Microsoft software
licenses maintained as part of the delivery order. More than 80 percent of the
maintenance expenditures made under this delivery order were related to these five
Microsoft products.

Therefore, we recommend that SSA document its computation of the number of
software licenses maintained and retain this documentation in the contract file.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed in principle with our recommendation. SSA’s comments are included in
Appendix B. SSA emphasized, and we agree, that its disposal of prior contract file
documentation after its required retention period was appropriate. However, instead of
developing a process to identify the number of software licenses actually needed to
meet current mission requirements, SSA stated it based the $100+ million acquisitions
on software requirements formulated prior to the 1996 UNISYS contract. Since SSA did
not create documentation to substantiate formulation of current software requirements,
and no longer retained documentation to substantiate its pre-1996 software
requirements, we could not assess the validity of SSA’s requirements formulation.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                       Appendix A

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the contract between the Social Security Administration (SSA) and
    Softmart Government Services, Inc.

•   Reviewed the applicable sections of the Federal Acquisition Regulation.

•   Interviewed the Contracting Officer in the Office of Acquisition and Grants, the
    Contracting Officer Technical Representative in the Division of Resource
    Management and Acquisition, staff in the Office of Finance, and staff in the Office of
    the Chief Information Officer.

•   Obtained a list from the Office of Finance identifying 26 invoices totaling
    $104,775,091 paid under this contract for services received. We reviewed the
    five largest invoice dollar amounts and the three lowest invoice dollar amounts. The
    total amount of the eight selected invoices was $61,656,879, which represented
    approximately 59 percent of the total amount paid under the contract. We reviewed
    these invoices to ensure (1) SSA paid amounts approved in the contract;
    (2) invoices were approved before payment; (3) SSA paid invoices timely in
    accordance with the terms of the contract; and (4) invoice amounts were recorded
    correctly.

We determined that the data used for this audit were sufficiently reliable to meet our
audit objectives. We performed our audit between September 2009 and April 2010 in
Baltimore, Maryland, and Dallas, Texas. The principal entity audited was the Division of
Resource Management and Acquisition under the Office of the Deputy Commissioner
for Systems. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                  Appendix B

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 31, 2010                                                         Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Delivery Order with Softmart Government
           Services, Inc., for Microsoft Licensing and Maintenance” (A-06-10-11019)--INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response to the report’s
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff at (410) 966-6975.

           Attachment




                                                          B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DELIVERY ORDER WITH SOFTMART GOVERNMENT SERVICES,
INC., FOR MICROSOFT LICENSING AND MAINTENANCE” -- A-06-10-11019

We offer the following in response to your recommendation.

Recommendation

We recommend that SSA document its computation of the number of software licenses
maintained and retain this documentation in the contract file.

Response:

We agree in principle, but in this case, we followed all retention rules in disposing of information
in the contract file. We did not dispose of the information inappropriately.

The purpose of your audit was to review a contract with Softmart Government Services, Inc. We
awarded the contract in 2003 and it extended through December 2008. Regarding that contract,
you state in the report:

       “SSA officials acknowledged the contract file did not contain documentation supporting
       the need for 107,946 licenses.”

While we may not have provided the level of documentation you deemed appropriate, we did
have considerable documentation to exhibit the sound reasoning behind our decisions. We
provided your auditors with that documentation in the form of a System Procurement Request
(SPR).

In 1996, we issued a contract to UNISYS and purchased thousands of copies of Microsoft
software. At that time, we assessed our needs and documented our reasons for the number of
licenses we required. We used our UNISYS experience as the primary basis for ordering
continuing maintenance and software upgrades from Softmart. As you note in your report, “SSA
officials stated that they believed the need for this number of licenses was documented in the
prior contract file.” That “prior contract file” was for UNISYS, and we disposed of the file after
the retention period required by the Federal Acquisition Regulation.

On June 6, 2003, our Chief Information Officer (CIO) submitted a formal SPR for an “Enterprise
License Agreement for Microsoft Proprietary Software” (attached). In the SPR, the CIO
provided detailed information concerning our requirements. The cover memorandum of the SPR
stated that:

       “SSA currently has an Enterprise Licensing Agreement with UNISYS Corporation for
       maintenance of Microsoft products that support SSA’s workstation and LAN
       environment.”




                                                B-2
In the body of the SPR itself, we referenced the original UNISYS contract (Contract# 600-96-
26459 – originally negotiated and signed in 1996) and explained that a new contract (ultimately
with Softmart) would provide continuing maintenance support for the same Microsoft products
covered by UNISYS. We also provide detailed information concerning our requirements for
additional licenses (e.g., “procurement of 6,144 new operating systems and associated products”
to support a workstation replacement project) and explained further how a new licensing
agreement would consolidate several existing contracts for similar products into a single
contract.

We believe the SPR provides adequate evidence for you to conclude that we acted properly in all
aspects when administering the Softmart contract. You state that:

       “Amounts paid for services provided under the delivery order were in accordance with
       negotiated prices, and SSA received the services for which it paid.”

The Microsoft products you cite are integral to our business processes, and virtually every person
doing SSA work uses them daily. We based our decisions concerning quantities on the fact that
we need support for every one of the workstations in our inventory. This includes workstations
for all SSA and DDS employees, and contractors – more than 85 thousand persons. We have a
person-to-workstation ratio that exceeds one-to-one, primarily because of field offices where we
have front-end interviewing workstations in addition to personal workstations. Considering this,
it is evident that the quantities cited in the Softmart contract are in line with what one would
expect.

We believe that your finding relates more to a lack of documentation for the 14-year-old
UNISYS contract, rather than any uncertainties about whether we ordered proper quantities more
recently. Nevertheless, we understand that we must continue to assess accurately our needs for
software licenses. Although it may have been helpful to you to have retained the UNISYS
documentation as further support for the Softmart contract, we disposed of the documentation
appropriately and in accordance with retention policies.

You state that you will be performing an audit for a similar contract we negotiated in 2009 with
Dell Marketing. You started that audit recently, and we have provided documentation to support
our 2009 estimates. This is further evidence that we are complying with documentation
standards. We trust you will discuss this in your future report.

One other note: In addition to the up-front work that we do for these contracts, we also maintain
strict controls when actually issuing software licenses. As offices have specific requirements,
they make formal requests through the Division of Resource Management and Acquisition web
site, a site we maintain specifically to track and issue licenses. We also use the information to
support the payments we make to vendors.




                                               B-3
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Lela Mitchell, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-06-10-11019.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
